100a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed Oct 10 2019]
No. 17-56119
D.C. No. 2:15-ml-02668-BRO-JEM
Central District of California, Los Angeles
In re: NATIONAL FOOTBALL LEAGUES

Sunday Ticket Antitrust Litigation,
Ninth Inning, INC., DBA The Mucky Duck; et al.,
Plaintiffs-Appellants,
v.
DlRECTTV, LLC; et al.,
Defendants-Appellees.
ORDER
Before: IKUTA and N.R. SMITH, Circuit Judges, and
STEEH,* District Judge.
Judge Ikuta voted to deny the petition for rehearing
en banc and Judge Steeh so recommended. Judge N.R.
Smith recommended granting the petition for rehear­
ing en banc. The petition for rehearing en banc was
The Honorable George Caram Steeh III, United States
District Judge for the Eastern District of Michigan, sitting by
designation.

101a
circulated to the judges of the court, and no judge
requested a vote for en banc consideration.
The petition for rehearing en banc is DENIED.

102a
APPENDIX D
§ 1. Trusts, etc., in restraint of trade illegal;
penalty
Every contract, combination in the form of trust or
otherwise, or conspiracy, in restraint of trade or
commerce among the several States, or with foreign
nations, is declared to be illegal. Every person who
shall make any contract or engage in any combination
or conspiracy hereby declared to be illegal shall be
deemed guilty of a felony, and, on conviction thereof,
shall be punished by fine not exceeding $100,000,000
if a corporation, or, if any other person, $1,000,000, or
by imprisonment not exceeding 10 years, or by both
said punishments, in the discretion of the court.
(July 2, 1890, ch. 647, § 1, 26 Stat. 209; Aug. 17, 1937,
ch. 690, title VIII, 50 Stat. 693; July 7, 1955, ch. 281,
69 Stat. 282; Pub. L. 93-528, § 3, Dec. 21, 1974, 88
Stat. 1708; Pub. L. 94-145, § 2, Dec. 12, 1975, 89 Stat.
801; Pub. L. 101-588, § 4(a), Nov. 16, 1990, 104 Stat.
2880; Pub. L. 108-237, title II, § 215(a), June 22, 2004,
118 Stat. 668.
* * *

103a
§ 2. Monopolizing trade a felony; penalty
Every person who shall monopolize, or attempt to
monopolize, or combine or conspire with any other per­
son or persons, to monopolize any part of the trade or
commerce among the several States, or with foreign
nations, shall be deemed guilty of a felony, and, on con­
viction thereof, shall be punished by fine not exceeding
$100,000,000 if a corporation, or, if any other person,
$1,000,000, or by imprisonment not exceeding 10
years, or by both said punishments, in the discretion
of the court.
(July 2, 1890, ch. 647, § 2, 26 Stat. 209; July 7, 1955,
ch. 281, 69 Stat. 282; Pub. L. 93-528, § 3, Dec. 21,
1974, 88 Stat. 1708; Pub. L. 101-588, § 4(b), Nov. 16,
1990,104 Stat. 2880; Pub. L. 108-237, title II, § 215(b),
June 22, 2004, 118 Stat. 668.)
* * *

104a
§15. Suits by persons injured
(a) Amount of recovery; prejudgment interest
Except as provided in subsection (b), any person who
shall be injured in his business or property by reason
of anything forbidden in the antitrust laws may sue
therefor in any district court of the United States in
the district in which the defendant resides or is found
or has an agent, without respect to the amount in
controversy, and shall recover threefold the damages
by him sustained, and the cost of suit, including a rea­
sonable attorney’s fee. The court may award under
this section, pursuant to a motion by such person
promptly made, simple interest on actual damages for
the period beginning on the date of service of such per­
son’s pleading setting forth a claim under the antitrust
laws and ending on the date of judgment, or for any
shorter period therein, if the court finds that the
award of such interest for such period is just in the
circumstances. In determining whether an award of
interest under this section for any period is just in the
circumstances, the court shall consider only—
(1) whether such person or the opposing party,
or either party’s representative, made motions or
asserted claims or defenses so lacking in merit as to
show that such party or representative acted inten­
tionally for delay, or otherwise acted in bad faith;
(2) whether, in the course of the action involved,
such person or the opposing party, or either party’s
representative, violated any applicable rule, statute,
or court order providing for sanctions for dilatory
behavior or otherwise providing for expeditious pro­
ceedings; and
(3) whether such person or the opposing party, or
either party’s representative, engaged in conduct pri-

105a
marily for the purpose of delaying the litigation or
increasing the cost thereof.
(b) Amount of damages payable to foreign states and
instrumentalities of foreign states
(1) Except as provided in paragraph (2), any per­
son who is a foreign state may not recover under sub­
section (a) an amount in excess of the actual dam­
ages sustained by it and the cost of suit, including a
reasonable attorney’s fee.
(2) Paragraph (1) shall not apply to a foreign state
if—
(A) such foreign state would be denied, under
section 1605(a)(2) of title 28, immunity in a case in
which the action is based upon a commercial activ­
ity, or an act, that is the subject matter of its claim
under this section;
(B) such foreign state waives all defenses based
upon or arising out of its status as a foreign state,
to any claims brought against it in the same action;
(C) such foreign state engages primarily in com­
mercial activities; and
(D) such foreign state does not function, with
respect to the commercial activity, or the act, that
is the subject matter of its claim under this section
as a procurement entity for itself or for another
foreign state.
(c) Definitions
For purposes of this section—
(1) the term “commercial activity” shall have the
meaning given it in section 1603(d) of title 28, and

106a
(2) the term “foreign state” shall have the mean­
ing given it in section 1603(a) of title 28.
(Oct. 15, 1914, ch. 323, § 4, 38 Stat. 731; Pub. L. 96349, § 4(a)(1), Sept. 12, 1980, 94 Stat. 1156; Pub. L.
97-393, Dec. 29, 1982, 96 Stat. 1964.)
* * *

107a
§ 1291. Exemption from antitrust laws of agree­
ments covering the telecasting of sports contests
and the combining of professional football
leagues
The antitrust laws, as defined in section 1 of the Act
of October 15, 1914, as amended (38 Stat. 730) [15
U.S.C. 12], or in the Federal Trade Commission Act,
as amended (38 Stat. 717) [15 U.S.C. 41 et seq.], shall
not apply to any joint agreement by or among persons
engaging in or conducting the organized professional
team sports of football, baseball, basketball, or hockey,
by which any league of clubs participating in profes­
sional football, baseball, basketball, or hockey contests
sells or otherwise transfers all or any part of the rights
of such league’s member clubs in the sponsored tele­
casting of the games of football, baseball, basketball,
or hockey, as the case may be, engaged in or conducted
by such clubs. In addition, such laws shall not apply to
a joint agreement by which the member clubs of two or
more professional football leagues, which are exempt
from income tax under section 501(c)(6) of the Internal
Revenue Code of 1986 [26 U.S.C. 501(c)(6)], combine
their operations in expanded single league so exempt
from income tax, if such agreement increases rather
than decreases the number of professional football
clubs so operating, and the provisions of which are
directly relevant thereto.
(Pub. L. 87-331, § 1, Sept. 30, 1961, 75 Stat. 732;
Pub. L. 89-800, § 6(b)(1), Nov. 8, 1966, 80 Stat. 1515;
Pub. L. 99-514, § 2, Oct. 22, 1986, 100 Stat. 2095.)

108a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT
OF CALIFORNIA
[Filed June 24, 2016]
Case No. ML 15-02668-BRO (JEMx)
CLASS ACTION
In Re: National Football League Sunday
Ticket Antitrust Litigation

THIS DOCUMENT RELATES TO: ALL ACTIONS

CONSOLIDATED AMENDED COMPLAINT
FOR DAMAGES AND DECLARATORY AND
INJUNCTIVE RELIEF PURSUANT TO
SECTIONS 1 AND 2 OF THE SHERMAN ACT

Marc M. Seltzer (54534)
Susman Godfrey L.L.P.
1901 Avenue of the Stars, Suite 950
Los Angeles, CA 90067
Tel: 310-789-3100
Fax: 310-789-3150
Email: mseltzer@susmangodfrey.com

109a
Scott Martin
Irving Scher
Hausfeld LLP
33 Whitehall Street, 14th Floor
New York, NY 10004
Tel: (646) 357-1100
Fax:(212)202-4322
Email: smartin@hausfeld.com
Email: ischer@hausfeld.com
Howard Langer
Edward Diver
Peter Leckman
Langer Grogan and Diver PC
1717 Arch Street, Suite 4130
Philadelphia, PA 19103
Tel: 215-320-5660
Fax: 215-320-5703
Email: hlanger@langergrogan.com

Plaintiffs Ninth Inning Inc. dba The Mucky Duck,
1465 Third Avenue Restaurant Corp. dba Gael Pub,
Robert Gary Lippincott, Jr., and Michael Holinko, by
and through their attorneys, complain and allege as
follows. All allegations herein, except for those relating
to the Plaintiffs themselves, are based on information
and belief.
INTRODUCTION
1. The 32 professional football teams (“Teams”) that
compete in the National Football League (“NFL”) have
agreed among themselves, and with DirecTV, and in
concert with others, to eliminate all competition in the
broadcasting and sale of live video presentations of
professional football games, including specifically for
purposes of this complaint, the broadcasting and sale

110a
of DirecTV5s NFL Sunday Ticket service to residential
and commercial subscribers as described below.1 As
the Supreme Court has observed, each team “is a sub­
stantial, independently owned, and independently man­
aged business,” competing with its rivals “not only on
the playing field, but to attract fans, for gate receipts
and for contracts with managerial and playing person­
nel,” as well as “in the market for intellectual prop­
erty.” American Needle, Inc. v. NFL, 560 U.S. 183,19697 (2009) (“American Needle”). Yet rather than compete
in the multibillion-dollar football broadcasting market,
they have joined forces to restrict supply and raise
prices.
2. It has been clear for more than half a century that
such agreements unreasonably restrain trade. In
1953, the United States Department of Justice (“DOJ”)
sued the NFL and its teams, alleging among other
things that a far more limited agreement—an agree­
ment merely prohibiting teams from broadcasting
within 75 miles of another team’s city when that team
was playing a televised game away from home—was
illegal under the Sherman Act. See United States v.
NFL, 116 F. Supp. 319 (E.D. Pa. 1953) (“NFL F). The
United States District Court for the Eastern District
of Pennsylvania readily agreed that that agreement
was an unjustified attempt to “enable the clubs ... to
sell monopoly rights” and “an unreasonable and illegal
restraint of trade.” Id. at 326-27.
1 Within this overall market is a submarket of “out-of-market”
NFL games played on Sunday afternoon and not broadcast on
CBS, Fox, or formerly on NBC within the viewer’s local television
market. This distinct product, called the “NFL Sunday Ticket” or
“Sunday Ticket”, has been trademarked by Defendants and is
recognized by them as a separate product from NFL games
broadcast on Fox, CBS, NBC, ESPN, and the NFL Network.

111a
3. In 1961, the court applied this ruling to prevent
the joint selling of broadcast rights. United States v.
NFL, 196 F. Supp. 445 (E.D. Pa. 1961) (“M IF). In
response to this ruling, the NFL lobbied for and
obtained a carefully limited antitrust exemption that
allows a league of professional football clubs to jointly
sell or transfer sponsored telecasting rights. This bill,
known as the Sports Broadcasting Act of 1961 (“SBA”)
(15 U.S.C. § 1291), exempted only “the free telecasting
of professional sports contests,” as former NFL Com­
missioner Pete Rozelle (“Rozelle”) “[a]bsolutely” recog­
nized. Congress expressly left the holdings of NFL I in
place (15 U.S.C. § 1292), and provided no exemption
for pay, cable and satellite television distribution.
4. For some time after the SBA’s passage, the NFL
and its Teams were content to abide by its limits and
jointly produce only free sponsored telecasts, available
to anyone with a television and a set of rabbit ears (or
the modern equivalent, a digital antenna). As cable
and satellite television began to present lucrative oppor­
tunities, however, the Teams chose not to compete in
this new sphere. Instead, they agreed to forgo all com­
petition and sell their valuable products only jointly,
throttling the supply of professional football telecasts
in violation of the holdings of NFL I and II, and outside
the carefully limited exemption of the SBA.
5. No other major sports league in America has such
a drastic, total elimination of competition in the broad­
casting of its games. While Major League Baseball
(“MLB”), the National Hockey League (“NHL”), and
the National Basketball Association (“NBA”) have
each allocated markets geographically and pooled so-

112a
called out-of-market rights, none has agreed to cen­
tralize control and sale of all broadcast rights.2
6. The anticompetitive effects of this agreement are
clear and significant. The agreement has restricted
the availability of live video presentations of regular
season NFL games. The Teams have agreed not to
avail themselves of cable, satellite, or Internet distri­
bution channels individually. In the absence of an
agreement, each team would have an incentive to dis­
tribute its games nationally in these channels. Given
the relatively low cost of internet streaming and satel­
lite and cable television carriage, each team acting inde­
pendently would offer their games at a competitive
price to anybody in the country who wanted to watch
that particular team.
7. Instead, however, the Teams have all forgone this
option in favor of creating a more lucrative monopoly.
The Teams have agreed to make an offering called
“NFL Sunday Ticket” (also referred to herein as “Sunday
Ticket”) the only way to view games other than the
limited selection of games broadcast through sponsored
telecasts (or, as discussed below, the cable channels
ESPN and NFL Network) in any given area. Sunday
Ticket bundles all other games into one package, sold
jointly by the NFL to DirecTV and then by DirecTV to
commercial and residential subscribers.
8. The NFL Sunday Ticket is an out-of-market
sports package that carries all NFL Sunday afternoon
games produced by Fox and CBS (except those broad­
cast on local CBS and Fox affiliates). Sunday Ticket
2 Although not at issue here, these agreements are themselves
anticompetitive and illegal under the antitrust laws. See gener­
ally Laumann v. NHL, 56 F. Supp. 3d 280, 297-302 (S.D.N.Y.
2014).

113a
appeals to NFL fans with loyalties to teams located
throughout the United States and fans who want to
watch more than the six games that the NFL allows to
be broadcast by television networks each week.
Additionally, commercial subscribers—primarily bars
and restaurants—generate a substantial share of their
overall revenue by having the capability to televise
multiple professional football games simultaneously
in order to attract a diverse range of fans to their estab­
lishments on Sunday afternoons during the fall NFL
football season. Indeed, DirecTV specifically markets
the NFL Sunday Ticket to restaurants and bars, includ­
ing, for example, through advertising such as: “Turn
your business into the neighborhood’s go-to spot with
the undisputed leader in sports” and “[o]nly DIRECTV
has the sports packages you need to attract fans of
every stripe with NFL SUNDAY TICKET 2015
9. This scheme restricts competition and harms
Sunday Ticket purchasers. First, the total elimination
of competition allows the NFL, its Teams, and DirecTV
to charge supracompetitive monopoly prices, rather
than the prices that would exist if the 32 teams were
competing for interest and distribution in a free market.
Second, Class members must pay for access to all 32
teams’ out-of-market games, even if they are only inter­
ested in viewing one or two teams’ games.
10. This exclusive deal, along with other contractual
arrangements between the NFL, its member teams, and
DirecTV, as well as Fox, ESPN, CBS, and NBC (collec­
tively, the “Networks”), results in the blackout or una­
vailability of out-of-market games, except through the
bundled NFL/DirecTV Sunday Ticket. These arrange­
ments result in substantial injury to competition,
including through eliminating distribution of out-ofmarket games through competing Multichannel Video

114a
Programing Distributor (“MVPD”) platforms, such as
the Dish Network, Comcast Corporation (“Comcast”),
and Spectrum Cable (formerly Time Warner Cable);
reducing game offerings and package mixes; and impos­
ing supracompetitive pricing for consumers. The
supracompetitive price for NFL Sunday Ticket now
exceeds $120,000.00 per year for the largest commer­
cial subscribers. As DirecTV says on its own website:
“Only DIRECTV brings you every play of every out-ofmarket game, every Sunday. Get the action on your
TV with NFL SUNDAY TICKET.”
11. Thus, DirecTV’s arrangement with the NFL
allows the Defendants to restrict the output of, and
raise the prices for, the live broadcast of NFL Sunday
afternoon out-of-market games. Each NFL member
team owns the initial rights to the broadcast of its own
games. However, the teams have collusively agreed to
grant the NFL the exclusive right to market games
outside of each team’s respective home market. But for
the NFL teams’ agreements in which DirecTV and
others have joined, teams would compete against each
other in the market for NFL football programming,
which would induce more competitive pricing and
content.
12. In addition to allowing Defendants to charge
supracompetitive prices for Sunday Ticket, this scheme
increases the market share and value of NFL regular
season games broadcast by the Networks and the NFL
Network. By limiting the availability of competing prod­
ucts, this scheme drives up the market share and value
of the broadcasts by the Networks, the NFL Network,
and DirecTV. This allows these broadcasters to increase
revenues of all parties to the scheme.
13. DirecTV has willfully joined, encouraged, and
entrenched the Teams’ conspiracy. It contracted with

115a
the NFL to make Sunday Ticket exclusive to DirecTV,
so that no other cable or satellite distributor could sell
it. In doing so, it required that the NFL and its Teams
preserve their anticompetitive agreement not to com­
pete with one another. DirecTV’s agreement to carry
Sunday Ticket and not to deal individually with NFL
teams is premised upon the continued existence of the
anticompetitive agreement not to create and distrib­
ute individual team telecasts. As explained below, the
Teams, in affirming the NFL’s successive agreements
with DirecTV, have mandated that nothing in the
NFL’s contracts with the Networks shall in any way
impede the exclusive deal between the DirecTV and
the NFL.
14. This exclusive distribution arrangement is unique
among American sports. Of the four major profes­
sional sports in this country—baseball, basketball,
hockey, and football—the only one with an exclusive
out-of-market broadcasting arrangement is the
NFL/DirecTV Sunday Ticket. Major League Baseball
(“MLB”), the National Basketball Association (“NBA”),
and the National Hockey League (“NHL”) all
distribute live out-of-market games through multiple
MVPDs, including, for example, DirecTV, the Dish
Network, and InDemand (which originated as a con­
sortium of Comcast, Cox Communications and Time
WarnerCable). As a result, DirecTV does not charge
nearly as much for access to MLB Extra Innings, NBA
League Pass, and NHL Center Ice, which provide
access to more games per week over a longer season
than the NFL.
15. Similarly, outside the United States, the NFL
distributes Sunday Ticket through numerous distribu­
tors, or even offers the games online without tying
them to an MVPD subscription. In Canada, the NFL

116a
Sunday Ticket is distributed on a non-exclusive basis
through the following MVPDs: Shaw Cable; Shaw
Direct; TELUS; Optik TV; TELUS Satellite TV; Bell
TV; Access Communications; Cogeco Cable; EastLink
Cable; Rogers Cable; Videotron; Westman Communi­
cations; MTS; and SaskTel.
16. A bar or restaurant with a fire code occupancy
between 51-100 paid $2,314.00 for Sunday Ticket in
2015 (in addition to television package subscription
charges, high-definition access fees, and other charges).
And the price for Sunday Ticket is higher the larger
the establishment’s Fire Code Occupancy (“FCO”) (also
known as “EVO”—Estimated Viewing Occupancy). The
largest establishments—like Nevada hotels—are
charged more than $120,000 per year for Sunday
Ticket, as reflected in the following pricing chart from
DirecTV (which also shows the pricing differential
between the exclusive NFL Sunday Ticket and the
non-exclusive MLB Extra Innings package):
11,808

lllWKS
NFL Sunday Ticket
1-PAY
3-PAY
5-PAY
1,458.00 486.00 • 291.60
2,314.00 771.33
462.80

EVO
1-50
51-100
101-150
4,630.00
151-200
201-350
6,479.00
351-500
9,258.00
501-750
10,419.00
751-1000 13,888.00
1001-1500 20,832.00
1501-2000 27,774.00
2001-5000 57,864.00
5001-10000
N/A
10000+
N/A

1,543.33

926.00

2,159.67
3,086.00
3,473.00
4,629.33
6,944.00
9,258.00
19,288.00
34,138.33
40,965.00

1,295.80
1,851.60
2,083.80
2,777,60
4,166.40
5,554.80
11,572.80
20,483.00
24,579.00

MLB Extra Innings
1-PAY
3-PAY
595.00
198.33
268.33
805.00
1,120.00
373.33
1,600.00
533.33
2,080.00
693.33
2,400.00
800.00
2,800.00

933.33

3,600.00

1,200.00

4,800.00 1,600.00
6,000.00 2,000.00
8,800.00 | 2,933.33

117a
17. Sunday Ticket prices for residential subscribers
are also far higher than they would be in a competitive
market. The exclusive distribution arrangement agreed
upon by the NFL and DirecTV has resulted in Sunday
Ticket prices to residential consumers that substan­
tially exceed the price for Sunday Ticket prices in
Canada, where no exclusivity exists. As an example,
for 2015, Sunday Ticket pricing in the United States
was fixed at $251.94 for the basic package and $353.94
for the “Max” package. By contrast, in Canada, where
there is no exclusivity MVPDs offered Sunday Ticket
for approximately $199.00 in Canadian dollars
($155.22 in U.S. dollars) or less.3 And certain other
Canadian cable providers bundle the out-of-market
games of the NBA, NHL, MLB and the NFL and in
2015 charged a C$35.95 (U.S. $28.04) monthly fee for
access to all of them.
18. DirecTV’s ability to offer NFL Sunday Ticket on
an exclusive basis is material to its operations. Indeed,
DirecTV’s merger with AT&T, which was consum­
mated in July of 2015, depended, in substantial part,
on continued exclusivity of this service. As DirecTV
noted in a filing with the Securities and Exchange
Commission (“SEC”) on December 3, 2014, “[p]ursuant
to the Merger Agreement, AT&T had the right to ter­
minate the Merger Agreement or not consummate the
Merger if we failed to enter into a contract with the
NFL providing for exclusive distribution rights for the
NFL Sunday Ticket service.”

3 This calculation is based on the assumption of an exchange
ratio of a Canadian Dollar to U.S. Dollar conversion ratio of .78,
the reported average by U.S. Forex for the period from January
1, 2015 - December 31, 2015. See www.usforex.com.

118a
19. Given these three sources of supracompetitive
pricing and unlawfully protected market power—the
agreement not to compete; the agreement to allow only
purchases of a bundle of all 32 teams; and the
agreement to sell certain games exclusively through
DirecTV—it is no surprise that Defendants are able to
charge exorbitant prices to Plaintiffs and other class
members.
20. The agreements challenged in this complaint
drastically curb output, reduce choice, and increase
price. They unreasonably restrain trade in violation of
Section One of the Sherman Act (15 U.S.C. § 1), and
allow the NFL to unlawfully monopolize the market
for live video presentation of professional football games
in violation of Section Two of the Sherman Act (15
U.S.C. § 2). Accordingly, Plaintiffs, on behalf of them­
selves and others similarly situated, seek injunctive
relief putting an end to this anticompetitive scheme
and damages to compensate the Classes for the
supracompetitive overcharges they have paid.
JURISDICTION AND VENUE
21. Plaintiffs bring this action pursuant to Section
16 of the Clayton Act (15 U.S.C. § 26), for a violation
of Sections 1 and 2 of the Sherman Act (15 U.S.C.
§§ 1-2). This Court has subject matter jurisdiction over
those claims pursuant to 28 U.S.C. §§ 1331 and 1337.
22. Venue is proper pursuant to 28 U.S.C. § 1391
and 15 U.S.C. § 22. The Defendants transact business
in this District, and are subject to personal jurisdiction
here.
23. Members of the Classes were injured in this
District and DirecTV is headquartered in this District.

119a
PARTIES
A. Plaintiffs
24. Plaintiff Ninth Inning Inc. dba The Mucky Duck
(“Mucky Duck”) is a pub located in San Francisco,
California. Mucky Duck has purchased the Sunday
Ticket from DirecTV in order to attract patrons to its
establishment on Sunday afternoons during the NFL’s
professional football season.
25. Plaintiff 1465 Third Avenue Restaurant Corp.
dba Gael Pub (“Gael Pub”) is a pub located in New
York, New York. Gael Pub has purchased the Sunday
Ticket from DirecTV in order to attract patrons to its
establishment on Sunday afternoons during the NFL’s
professional football season.
26. Plaintiff Robert Gary Lippincott, Jr. (“Lippincott”)
is a resident of Healdsburg, California. Lippincott
signed up for Sunday Ticket in order to watch out-ofmarket Sunday afternoon NFL games.
27. Plaintiff Michael Holinko (“Holinko”) is a resi­
dent of Belle Mead, New Jersey. Holinko signed up for
Sunday Ticket in order to watch out-of-market Sunday
afternoon NFL games.
B. Defendants
28. Until 2015, the NFL was an unincorporated
association of 32 American professional football teams
in the United States. Each of the 32 NFL member
teams, headquartered in various cities across the coun­
try, is separately owned and operated, acting in its own
economic self-interest and competing in most respects
with one another.
29. The 32 Teams are owned and operated by the
following entities, each of which is a defendant in this
action:

120a
NFL
Defendant
Team Owner

State of
Organization

Team Name
(City)

Arizona
Cardinals, Inc.

Arizona

Arizona
Cardinals

Atlanta Falcons
Football Club
LLC

Georgia

Atlanta Falcons

Baltimore
Ravens Limited
Partnership

Maryland

Baltimore
Ravens

Buffalo Bills,
Inc.

New York

Buffalo Bills

Panthers
Football LLC

North Carolina

Carolina
Panthers

Chicago Bears
Football Club,
Inc.

Delaware

Chicago Bears

Cincinnati
Bengals, Inc.

Ohio

Cincinnati
Bengals

Cleveland
Browns LLC

Delaware

Cleveland
Browns

Dallas Cowboys
Football Club,
Ltd.

Texas

Dallas Cowboys

Denver Broncos
Football Club

Colorado

Denver Broncos

121a
Detroit Lions,
Inc.

Michigan

Detroit Lions

Green Bay
Packers, Inc.

Wisconsin

Green Bay
Packers

Houston NFL
Holdings LP

Delaware

Houston
Texans.

Indianapolis
Colts, Inc.

Delaware

Indianapolis
Colts

Jacksonville
Jaguars Ltd.

Florida

Jacksonville
Jaguars

Kansas City
Chiefs Football
Club, Inc.

Texas

Kansas City
Chiefs

Miami
Dolphins, Ltd.

Florida

Miami
Dolphins

Minnesota
Vikings
Football Club
LLC

Minnesota

Minnesota
Vikings

New England
Patriots, LP

Delaware

New England
Patriots

New Orleans
Louisiana
Saints LLC

Texas

New Orleans
Saints

New York
Football
Giants, Inc.

New York

New York
Giants

122a
New York Jets
Football Club,
Inc.

Delaware

New York Jets

Oakland
Raiders LP

California

Oakland
Raiders

Philadelphia
Eagles Football
Club, Inc.

Delaware

Philadelphia
Eagles

Pittsburgh
Steelers Sports,
Inc.

Pennsylvania

Pittsburgh
Steelers

San Diego
Chargers
Football Co.

California

San Diego
Chargers

San Francisco
Forty Niners
Ltd.

California

San Francisco
49ers

Football
Northwest LLC

Washington

Seattle
Seahawks

The Rams
Football
Company LLC

Delaware

St. Louis Rams

Buccaneers
Limited
Partnership

Delaware

Tampa Bay
Buccaneers

Tennessee
Football, Inc.

Delaware

Tennessee
Titans

Washington
Football Inc.

Maryland

Washington
Redskins

123a
30. In or about 2015, the NFL incorporated as the
National Football League, Inc., and has its headquar­
ters at 345 Park Avenue, 7th Floor, New York, NY
10154. On information and belief, NFL Enterprises
LLC was organized to hold the broadcast rights of the
32 NFL Teams and license them to MVPDs and other
broadcasters, including DirecTV. NFL Enterprises
LLC is also located at 345 Park Avenue, 7th Floor,
New York, NY 10154.
31. Through the NFL, the 32 Teams do cooperate in
some respects, including by setting game rules and a
game schedule, and dividing their member teams into
geographic territories. The teams have also agreed to
allow the NFL to negotiate on their behalf television
contracts with national broadcasters, including for the
broadcast of each Team’s games outside its home
territory. These include the Sunday Ticket package
sold only through DirecTV.
32. In American Needle, Inc. v. National Football
League, 560 U.S. 183 (2010) (“American Needle”), the
United States Supreme Court unanimously rejected
the NFL’s claim that an agreement regarding the joint
marketing of club-owned intellectual property was the
decision of a “single entity”—the league—not subject
to section 1 of the Sherman Act (15 U.S.C. § 1). The
Court reaffirmed lower court decisions that sports
leagues are subject to the antitrust laws and that
league owners must refrain from agreements that
unreasonably restrain trade. The Court also reaf­
firmed its own decision in National Collegiate Athletic
Ass’n v. Board of Regents, 468 U.S. 85 (1984), which
held that the hallmark of an unreasonable restraint is
one that raises price, lowers output, or renders output
unresponsive to consumer preference.

124a
33. This complaint uses the term “NFL” to refer
collectively (unless otherwise indicated) to the 32
Teams, National Football League, Inc., and NFL
Enterprises, LLC.
34. Defendant DirecTV Holdings LLC is a Delaware
Limited Liability Company and has its principal
place of business at 2230 East Imperial Highway,
El Segundo, California. It is the U.S. operating arm of
DirecTV, Inc. and describes itself as “a leading pro­
vider of digital television entertainment in the United
States.” It claims that “[a]s of December 31, 2014, [it]
had approximately 20.4 million subscribers.”
35. DirecTV, LLC is a California Limited Liability
Company that has its principal place of business at
2230 East Imperial Highway, El Segundo, California.
DirecTV, LLC issues bills to its subscribers.
36. This Complaint uses the term “DirecTV” to refer
collectively to these two DirecTV entities.
TRADE AND COMMERCE
37. The NFL is by far the most significant provider
of professional football in the United States. The three
most recent Super Bowls have been the three mostwatched programs in U.S. history. The 2015 Super
Bowl was the most-watched program ever, with 114.4
million viewers.
38. In a July 2015 analysis, Bloomberg estimated
that the NFL receives about $6 billion annually in
total television revenue from all sources. In 2011, the
NFL negotiated nine-year extensions of its existing
broadcast deals with Fox, CBSand NBC, running
through the 2022 season. According to an August 27,
2014 Bloomberg report, ESPN, Fox, CBS and NBC pay
$1.9 billion, $1.1 billion, $1 billion and $950 million

125a
per year, respectively, for the right to broadcast NFL
games. The Wall Street Journal reported in September
of 2014 that CBS paid $300 million for the right to
telecast NFL “Thursday Night Football” for one year.
39. The commerce between the NFL and DirecTV is
equally lucrative. In October of 2014, it was announced
that DirecTV and the NFL entered into a new telecast­
ing deal reportedly worth $1.5 billion annually for the
next eight years, a deal that will bring $8 billion more
to the NFL (extending over four additional years) than
its last deal with DirecTV. Through these and other
contractual deals, the NFL, its member teams and
DirecTV engage in interstate commerce and in activi­
ties substantially affecting interstate commerce, and
the conduct alleged herein substantially affects inter­
state commerce.
CLASS ACTION ALLEGATIONS
40. Plaintiffs bring this action on behalf of them­
selves and as a class action under Fed. R. Civ. P.
23(b)(2) (for injunctive relief) and (b)(3) (for damages)
on behalf of all persons who fall within the definition
of either of the following two Classes (collectively, the
“Classes”):
All DirecTV commercial subscribers that pur­
chased the NFL Sunday Ticket from DirecTV,
or its subsidiaries, at any time between June
17, 2011 and the present (“Commercial Class”).
The Commercial Class excludes the Defend­
ants and any of their current or former par­
ents, subsidiaries or affiliates. The Commercial
Class also excludes all judicial officers presid­
ing over this action and their immediate fam­
ily members and staff, and any juror assigned
to this action.

!

126a
All DirecTV residential subscribers that pur­
chased the NFL Sunday Ticket from DirecTV,
or its subsidiaries, at any time between June
17, 2011 and the present (“Residential Class”).
The Residential Class excludes the Defend­
ants and any of their current or former
parents, subsidiaries or affiliates. The Residen­
tial Class also excludes all judicial officers
presiding over this action and their immedi­
ate family members and staff, and any juror
assigned to this action.
41. The Commercial Class is represented by Plain­
tiffs Mucky Duck and Gael Pub.
42. The Residential Class is represented by Plain­
tiffs Lippincott and Holinko.
43. DirecTV has sold its Sunday Ticket service to
members of the Classes across the nation during the
relevant period. Defendants have charged supracompetitive prices for that service.
44. Due to the nature of the trade and commerce
involved, the Classes consist of many thousands of mem­
bers. The exact number and their identities are known
to DirecTV.
45. The Classes are so numerous that joinder of all
members is impracticable.
46. There are questions of law and fact common to
the Classes, including:
a. Whether the NFL and its Teams engaged in a
contract, combination, or conspiracy to reduce
output and/or fix, raise, maintain or stabilize
prices of live video presentations of regular
season NFL games by agreeing that all video

127a
presentations would be licensed exclusively by
the NFL;
b. Whether Defendants have engaged in and are
continuing to engage in a contract, combina­
tion, or conspiracy among themselves to fix,
raise, maintain or stabilize prices of video
presentations of live Sunday NFL games by
eliminating competition among presenters of
out-of-market NFL games;
c. Whether Defendants have engaged in and are
continuing to engage in a contract, combina­
tion, or conspiracy among themselves to fix,
raise, maintain or stabilize prices of the
Sunday Ticket by preventing any competitor
from offering competing products;
d. The effect of Defendants’ agreements on the
prices of Sunday Ticket in the United States
during the class period;
e. The effect of Defendants’ agreements on the
retransmission consent and affiliate fees for
the carriage of NFL games to MVPDs;
f. The effect of Defendants’ agreements on the
subscription fees charged by MVPDs that
carry the Networks that air NFL games;
g. The identities of the participants in the
conspiracy;
h. The duration of the conspiracy and the acts
performed by Defendants in furtherance of it;
i. Whether the alleged conspiracy violated
Section 1 of the Sherman Act, 15 U.S.C. § 1;
j. Whether the alleged conspiracy violated
Section 2 of the Sherman Act, 15 U.S.C. § 2;

128a
k. Whether the conduct of Defendants caused
injury to the Plaintiffs and the other members
of the Classes; and
l. The appropriate measure of damages.
47. Plaintiffs and the Classes were, during the
Class period, commercial or residential subscribers to
DirecTV who also purchased the Sunday Ticket pack­
age. Their respective claims are typical of the particu­
lar Class that they seek to represent, and the named
Plaintiffs will fairly and adequately protect the inter­
ests of the particular Class that they seek to represent.
48. Plaintiffs are represented by counsel who are
competent and experienced in the prosecution of
antitrust and class action litigation.
49. Given the high cost of establishing that Defend­
ants’ agreements violated the antitrust laws (includ­
ing, but not limited to, substantial expert witness costs
and attorneys’ fees), a class action is the only economi­
cally feasible means for any Plaintiff to enforce their
statutory rights.
50. The prosecution of separate actions by individ­
ual members of the Classes would also create a risk of
inconsistent or varying adjudications, establishing
incompatible standards of conduct for Defendants.
51. The questions of law and fact common to the
members of the Classes predominate over any ques­
tions affecting only individual members, including legal
and factual issues relating to liability and damages.
52. A class action is superior to other available
methods for the fair and efficient adjudication of this
controversy. The Classes are readily ascertainable and
are ones for which records exist. Prosecution as a class
action will eliminate the possibility of duplicative liti-

129a
gation. Treatment as a class action will permit a large
number of similarly situated persons to adjudicate
their common claims in a single forum simultaneously,
efficiently, and without the duplication of effort and
expense that numerous individual actions would engen­
der. This class action presents no difficulties in man­
agement that would preclude maintenance as a class
action.
FACTUAL ALLEGATIONS
A. Relevant Market
53. The relevant geographic market for both
Classes is the United States. The relevant product
market for both Classes is the live video presentations
of regular season NFL games that includes a distinct
submarket for “out-of-market” games as described
above. The national broadcast rights to select packages
of games are negotiated by the NFL with networks
CBS, NBC, ESPN and Fox. In addition to broadcasts
of these games, the market includes broadcast rights
for out-of-market games, such as those carried in the
NFL Sunday Ticket package. Broadcasts of other
sports or other content do not compete with broadcasts
of NFL games. Moreover, NFL games broadcast locally
on CBS and Fox on Sunday afternoons are distinct
from the multi-game offering provided by Sunday
Ticket specifically because the local games are differ­
ent from the multi-game offering provided by Sunday
Ticket, which caters to fans that are not located within
the geographical confines of their favorite teams’ home
territories.
54. New entrants that would dilute the market
power over NFL video broadcasts created by the collu­
sive agreements at issue here are extremely unlikely.
New entry would require the creation of a new profes-

130a
sional league playing American football. Such an
undertaking would be enormously expensive, and—
based on history—very unlikely to succeed. Even if a
new entrant did appear, and even if it were sufficiently
successful to sustain itself, it is unlikely that the result­
ing video product would compete sufficiently with the
NFL’s broadcasts to dissipate the NFL’s monopoly
power.
55. In the 95 years since the NFL’s formation in
1920, there have only been a few noteworthy attempts
at entry into the market for American football games.
Three times, once each in the 1920s, 1930s, and 1940s,
an entity calling itself the American Football League
was formed, briefly operated and then failed. In 1960
another entry attempt, also under the name of the
American Football League, operated independently for
nine years before merging with the NFL in 1970.
56. The United States Football League (“USFL”)
was founded in 1982 but disbanded in 1986. It sued
the NFL for monopolization arid won a jury verdict.
USFL v. NFL, 842 F.2d 1335 (2d Cir. 1988). There
have also been failed attempts to start and sustain a
women’s football league and various minor leagues or
talent development leagues. The closest thing to a suc­
cessful entry is the Arena Football League, which
plays a substantially different type of football—indoor
football. The Arena Football League (“AFL”) began
play in 1987 and continued through the 2008 season.
The league was reorganized in 2010 and continues
today. However, the games of the AFL are played in
spring and summer to avoid competition with NFL
football broadcasts. In addition, AFL produces an alto­
gether different sport, with a different fan base, that
does not compete substantially with the NFL for a
broadcast audience.

131a
57. By contrast, NFL Teams are well established
and immensely popular, with 32 regionally diverse
teams in or near almost every major population center
in the United States. NFL Teams reside within 18 of
the 25 most populous metropolitan areas, dramatically
limiting the locations and audiences available to new
teams or leagues. During the NFL’s long history not
one of the few sporadic attempted entries has been
successful at competing for NFL football broadcast
audiences. It is virtually impossible that a new league
will form to compete away the NFL’s monopoly power.
58. The NFL’s monopoly power will only be tempered
if the underlying collusive agreement, which created
the monopoly power, is broken up through antitrust
authority, or if the exclusive deals that propagate that
monopoly power are replaced by non-exclusive licenses.
59. The value of the monopoly power that DirecTV
exercises as a result of its exclusive deal with the NFL
is illustrated by the recent contract extension with the
NFL and the recent acquisition of DirecTV by AT&T.
As Forbes noted in an October 1, 2014 article:
DirecTV has renewed its agreement with the
National Football League for another 8 years.
However, this time around, the price is
increased by 50% to around $1.5 billion a year.
This is very expensive and far more than $1
billion that CBS, NBC and Fox pay for their
respective NFL coverage. The satellite com­
pany offers to its subscribers the popular NFL
Sunday Ticket, a sports package that broad­
casts NFL regular season games that are not
available on local affiliates. Aided by the NFL,
DirecTV has managed to attract customers
even at times when other pay-TV operators
were losing subscribers. The extended deal

132a
with the NFL will aid to the overall subscriber
growth for the company. Moreover, the agree­
ment was of key importance for DirecTV, as
its proposed merger with AT&T to some extent
was dependent on this deal.
Indeed, AT&T’s $48.5 billion offer to purchase DirecTV
contained a clause allowing AT&T to cancel the deal if
DirecTV loses its exclusive contract for Sunday Ticket.
That clause provided: “[t]he parties also have agreed
that in the event that DirecTVs agreement for the
‘NFL Sunday Ticket’ service is not renewed substan­
tially on the terms discussed between the parties, the
Company [AT&T] may elect not to consummate the
Merger.” Of course, DirecTV renewed its contract with
the NFL for Sunday Ticket and the merger with AT&T
was consummated in June of 2015.
B. Relevant History
Agreements

of

NFL

Broadcasting

60. Television coverage of NFL games began in
1939, with regular broadcasting beginning after World
War II. By 1950, Teams in Los Angeles and Washington,
D.C. had negotiated contracts for all of their games to
be televised, with many other teams following suit
over the course of the 1950s.
61. As these early clubs worked to get their nascent
broadcasting contracts in place, they jointly agreed to
restrict broadcasting competition. As of 1953, Article
X of the NFL’s by-laws prohibited any Team from
broadcasting its games within 75 miles of another
team’s home city if that second team was either
playing a game at home or playing a game on the road
and broadcasting it back home. These restrictions
“effectively prevented] ‘live’ broadcasts or telecasts of

133a
practically all outside games in all the home
territories.” NFL I, 116 F. Supp. at 321.4
62. The DOJ sued to enjoin enforcement of Article
X, contending that it was illegal under 15 U.S.C. § 1.
63. The United States District Court for the East­
ern District of Pennsylvania considered the competi­
tive effects of the restriction. After noting that, at that
time, “less than half the clubs over a period of years
are likely to befinancially successful” and some teams
were “close to financial failure,” it found that “ [rea­
sonable protection of home game attendance [was]
essential to the very existence of the individual clubs”
and that prohibiting broadcasting of outside games
while a team was playing a home game was reasona­
ble. Id. at 323-25.
64. At the same time, the court in NFL I rejected the
argument that Teams could legally agree not to broad­
cast in each other’s territories when the local team was
not playing a home game, which “obvious [ly] . . . can­
not serve to protect game attendance.” Id. at 326.
Rather, it found that “the testimony of defendants’
witnesses consistently indicates that the primary
reason for the restrictions in this situation actually is
to enable the clubs in the home territories to sell monop­
oly rights to purchasers of television rights to [their]
away games.” Id. (footnote omitted). It therefore held
this restriction to be illegal. Id. at 327. It similarly
condemned a provision prohibiting radio broadcasts of
outside games, finding that even when teams were play­
ing at home there was no evidence of “any significant

4 “

Outside games” were defined as games “played outside the
home territory of a particular home club and in which that home
club [was] not a participant.” Id.

134a
adverse effect on gate attendance” but only an enhance­
ment of “the value of such rights to purchasers.” Id.
65. In the years following this ruling, NFL Teams
expanded their broadcasting output. By 1960—-just a
decade after the first clubs obtained distribution for all
of their games—most NFL teams were broadcasting
their entire seasons, and Sunday games were availa­
ble on every national network.
66. Despite this growing success, the NFL and the
Teams were not satisfied with competitive results.
Instead, they determined that they could make signifi­
cantly more money by pooling and thus monopolizing
their rights, allowing them both to demand higher
rights fees from networks and offer networks the
ability to be the sole source of NFL games. The Teams
therefore transferred their rights to the NFL, which
then sold to CBS “the sole and exclusive right to tele­
vise all League games.” NFL II, 196 F. Supp. at 446.
67. The United States District Court for the East­
ern District of Pennsylvania again had no trouble find­
ing that “the member clubs of the League have elimi­
nated competition among themselves in the sale of
television rights to their games.” Id. at 447. It there­
fore found the CBS contract to violate its judgment in
NFL I and prohibited the enforcement of the contract.
Id.
68. The NFL next turned to Congress, lobbying for
an antitrust exemption that would overturn NFL II
and allow them to pool their rights for the purpose of
selling games to over-the-air networks that were avail­
able to all viewers for free. This lobbying resulted in
the passage of the SBA, which exempted from the
Sherman Act

135a
any agreement by or among persons engaging
in or conducting the organized professional
team sport [] of football . . . , by which any
league of clubs participating in professional
football . . . contests sells or otherwise trans­
fers all or any part of the rights of such
league’s member clubs in the sponsored tele­
casting of the game[] of football . . . engaged
in or conducted by such clubs.
15 U.S.C. § 1291. As discussed in greater detail below,
the exemption provided by the SBA does not extend to
cable, satellite or pay-per-view telecasts.
69. The NFL and its Teams were content to abide
by this limitation for some 25 years, broadcasting on
as many as three free, over-the-air networks simulta­
neously. Once again, however, the lure of increased
revenues proved irresistible. With the growth of cable
television—which, unlike the sponsored telecasts
envisioned by the SBA, are available only to paying
subscribers—and its lucrative subscriber base, the
NFL and its Teams chose to ignore the limitations on
the exemption they had received in the SBA and
instead to sell their horizontally-pooled rights to cable
networks.
70. In 1987, ESPN became the first cable broad­
caster of NFL games—games that were subject to the
same restrictive horizontal agreement that had previ­
ously been used only to arrange the publicly available
sponsored telecasts.
71. As a result of the NFL and its Teams’ output
restrictions, consumers in any given area had no
authorized means of watching most regular season
NFL games, despite the increasing capacity to distrib­
ute the games and the decreasing cost of doing so.

136a
Instead, they were artificially limited to those few
games, usually no more than four or five per week (and
no more than two at any given time), that the Net­
works and the NFL chose to broadcast in their area.
This artificially constrained output created a large,
unserved demand for the inaccessible games, leading
to a surge in piracy of distant feeds in the 1980s.
72. The NFL wanted to cut down on this piracy
(which, though it fueled interest in football, did not
directly profit the NFL or its Teams) and capitalize on
the pent-up demand created by the horizontal supply
restriction, but without forgoing its monopoly control
of all broadcast rights. In 1987, it developed a plan
that prefigured the modern Sunday Ticket package:
market an encrypted package of all games that could
be viewed by consumers who purchased a decoder.
73. According to sports journalist Gregg Easterbrook,
CBS opposed the idea, fearing that the dilution of their
ratings would decrease their advertising revenue, and
this plan was not implemented as originally conceived.
74. In December of 1993, however, Fox outbid CBS
for broadcast rights, removing an important obstacle
to the planned package. At the same time, the advent
of direct-broadcast satellite television service (“DBS”)
made distribution of all games easy and inexpensive.
Those early DBS providers could carry a larger num­
ber of channels than contemporaneous cable providers
without running into capacity constraints. (Capacity
constraints are no longer a significant factor for either
DBS or cable providers.)
75. For the 1994 season, the NFL bundled together
a package of games that could be sold nationwide,
allowing the NFL and its Teams to offer a single,
monopolized product containing the various products

137a
they would otherwise sell individually. This package
would become the product known today as Sunday
Ticket.
76. DirecTV, the second commercial DBS provider
in America, also launched in 1994, just a few months
before the NFL season began. It contracted with the
NFL to license Sunday Ticket exclusively, making it
the only source for the vast majority of regular season
NFL games in any part of the country. Since then,
DirecTV has successfully convinced the NFL to con­
tinue licensing Sunday Ticket exclusively, even though
the technological impediments to carriage by cable
providers or on the Internet have long since faded
away.
77. Even with CBS temporarily out of the picture,5
the NFL still encountered resistance from its other
broadcast networks. Moreover, it could not create
Sunday Ticket without the Networks’ agreement to
provide their feeds of games to DirecTV. Some of the
networks demanded concessions and limitations on
Sunday Ticket in exchange. In 2003, News Corpora­
tion, the parent of Fox, acquired 34% of DirecTV that
it then transferred to the Fox Entertainment Group.
According to Gregg Easterbrook (“Easterbrook”),
a reporter at ESPN, Fox insisted that Sunday
Ticket subscribers be capped at one million annually.
Easterbrook also reported that, while this cap has
increased over the years, it remained an express or
implied obligation.
78. The NFL’s own resolutions attached to its 2006
Constitution and By-Laws underscore the significance

6 CBS resumed broadcasting NFL games in 1998.

138a
of these agreements. NFL 2003 Resolution BC-1 con­
tains this clause:
It is hereby Resolved that the League concurs
in the Broadcasting Committee’s approval of
the DirecTV Agreement, with the Broadcast­
ing Committee to ensure that, during the term
of the DirecTV Agreement, no network televi­
sion agreement containing provisions that
would interfere with or preclude NFL Enter­
prises’ performance of the DirecTV Agreement
shall be executed.
79. Similarly, NFL Resolution 2004 BC-3 contains
this clause:
Be it Resolved that the League concurs in the
Broadcasting Committee’s approval of the
DirecTV Agreement and directs the Broadcast­
ing Committee to ensure that, during the
term of the DirecTV Agreement, no network
television agreement containing provisions
that would interfere with or preclude NFL
Enterprises’ performance of the DirecTV
Agreement [sic].
80. It is fundamental to carrying out the exclusive
deal between the NFL and DirecTV that the latter has
access to the feeds of Sunday afternoon NFL games
televised by CBS and Fox.
C. The NFL’s Current Broadcast Rights Agree­
ments
81. As noted above, the NFL’s 32 member Teams
have given the league authority to negotiate pooled
rights television deals on their behalf, in exchange for
an equal share of the resulting revenues.

139a
82. Regular season NFL games are currently broad­
cast in two principal ways.
i. Over-the-Air and Cable Broadcasts
83. First, as they have done since 1987, the NFL
and its Teams sell their pooled rights to over-the-air
and cable networks. Currently, they contract with five
networks: the over-the-air networks NBC, Fox, and
CBS; the subscription network ESPN; and the NFL’s
own subscription network, NFL Network. When the
NFL most recently negotiated these contracts, in 2011,
it was reported that the deals lasted at least eight
years and until 2022 in some cases, and totaled some
$27 billion in licensing fees.
84. During the regular season, most games take
place on Sunday afternoons at approximately 1 p.m. or
4:25 p.m. Eastern time. These games are split between
CBS and Fox, with CBS holding the exclusive rights to
broadcast American Football Conference (“AFC”) games
and Fox the exclusive rights to broadcast National
Football Conference (“NFC”) games. In most weeks,
there are between eleven and thirteen Sunday after­
noon games. In addition, the NFL typically schedules
one game on Sunday, Monday, and Thursday nights.
These night games are licensed exclusively to NBC,
ESPN, and the NFL Network, respectively, for national
distribution. For the Sunday afternoon games, CBS
and Fox, in consultation with the NFL, determine
which games will be broadcast in which locations. Typi­
cally, each network makes only one game available in
any given location at a time. Each week, one network
has the rights to air one game in each timeslot, while
the other network may air a game only in one timeslot.
For example, in a given week, CBS would choose one
AFC game to make available in a given location at 1
p.m. and one to make available at 4:25 p.m. Fox would

!

140a
have the right to air NFC games in only one timeslot
in a week that CBS was permitted to show two games.
On another week, CBS’s and Fox’s roles would be
reversed, with Fox broadcasting two games and CBS
broadcasting one. League rules farther limit the games
available in a market in which a team is playing a
Sunday afternoon game, such that under certain
circumstances only one other game will be available.
85. Thus, in any location in America, there are no
more than two regular-season games available on
television at any given time—even though there may
be as many as seven games being played simultane­
ously, by fourteen teams. In total, no more than three
NFL Sunday afternoon games are typically shown in
a given location, despite as many as thirteen games
being played on Sunday afternoon.
86. This ensures that no more than six games will
be broadcast on television in any given week, thereby
lessening the competition that each broadcaster would
face from fourteen or fifteen games to five. A primary
purpose of the restrictions is to make the rights to the
games more valuable to broadcasters, which allows
them to earn more money from the telecasting of NFL
games. Broadcasters are able to charge more to adver­
tisers and more to MVPDs (in the form of affiliation
fees or retransmission consent fees).
87. This effect is particularly pronounced for the
Sunday afternoon games broadcasted by CBS and Fox.
In a competitive market, up to seven games would be
broadcast simultaneously (which would still be signifi­
cantly less than the number of college football games
that are typically broadcast at the same time). This
would represent a massive increase in consumer
choice—but would give CBS and Fox direct competi­
tors that would reduce their ratings and revenue.

141a
Keeping those games off regular television and restrict­
ing them only to DirecTV subscribers who are willing
to pay for the supracompetitively priced Sunday Ticket
increases consumer costs and limits consumer choice.
88. The participation of cable networks ESPN and
NFL Network exacerbates the anticompetitive harms
wrought by the agreements. Because of the reduced
competition in the broadcasting and sale of live video
presentations of professional football games, ESPN
and NFL Network are able to charge inordinately
large subscription fees to MVPDs, which are then passed
on to consumers. In part due to the exclusivity it has
purchased from the NFL and its members, ESPN is
the single most expensive cable channel in the United
States. Indeed, according to a 2014 Wall Street Journal
analysis, ESPN cost $6.04 a month on average, more
than four times as much as the second-most expensive
national channel, TNT, which cost just $1.48 a month.
MVPDs’ robust profit margins confirm that this exor­
bitant price is passed on to consumers.
ii. DirecTV and NFL Sunday Ticket
89. Beginning in 1994, pursuant to its exclusive
agreement with the NFL, DirecTV offered its subscrib­
ers access to the Sunday afternoon games that were
not otherwise available in their market via national
broadcasts. These subscribers could purchase NFL
Sunday Ticket, a premium subscription-based package
that provides access to all Sunday afternoon games
broadcast on Fox and CBS, or their predecessors.
90. Through its exclusive agreement with the NFL,
DirecTV today takes the live game telecast feeds
produced by CBS and Fox and redistributes them
without alteration to NFL Sunday Ticket subscribers

142a
via DirecTV channels. NFL Sunday Ticket subscribers
can thus access all Fox or CBS games.
91. Defendants have colluded to sell the out-of­
market NFL Sunday afternoon games only through
DirecTV. Such an arrangement eliminates competition
in the distribution of out-of-market Sunday afternoon
games and requires anyone wishing to view these
games to subscribe to DirecTV and purchase NFL
Sunday Ticket (or, in limited circumstances, purchase
from DirecTV a Sunday Ticket live streaming pack­
age) at a supracompetitive price created by the exclu­
sive NFL/DirecTV distribution agreement.
92. The contracts between the NFL and DirecTV
are negotiated on behalf of the league and then ratified
by vote of the members of the league. For example, in
the 2003 Resolution BC-1, attached as an addendum
to the 2006 version of the NFL’s Constitution and
Bylaws, the league members ratified the proposed
agreement between NFL Enterprises LLC and DirecTV
whereby the latter could telecast out-of-market NFL
regular season games during the 2003-08 football sea­
sons. Similarly, in 2004 Resolution BC-3, also attached
as an addendum to the 2006 version of the NFL’s
Constitution and Bylaws, the members of the league
ratified the “NFL Sunday Ticket rights agreement”
between NFL Enterprises and DirecTV for the 200610 football seasons. Subsequent extensions or renewals
of the agreements between the NFL and DirecTV have
been similarly ratified.
93. The exclusive nature of the NFL’s contractual
and other arrangements with DirecTV prevents other
MVPDs or, indeed, the individual clubs in the league,
from offering broadcasts of out-of-market games in
competition with each other and with DirecTV. This
anticompetitive effect implicates blackouts of out-of-

143a
market games, both broadly and as discussed in the
NFL’s Constitution and Bylaws. For example, NFL
Bylaw 10.2(a) imposes the following blackout restriction
on televised games: “[n]o club shall cause or permit a
game in which it is engaged to be telecast into any area
included within the home territory of any other club
on the day that such other club is engaged in playing
a game at home....” As a result of bylaws of this type,
out-of-market games—as defined in the deal between
the NFL and DirecTV—are unavailable to commercial
and residential subscribers except pursuant to the
anticompetitive conditions imposed upon them by
Defendants. But for these conditions, commercial and
residential subscribers would have more choices to
access out-of-market games at lower prices.
94. As explained previously, DirecTV’s exclusive
arrangement with the NFL results in NFL Sunday
Ticket subscribers paying a higher price for NFL Sunday
Ticket (and other access charges) than they otherwise
would pay if the agreements were negotiated
competitively.
95. For example, on December 11, 2002, when the
NFL’s first contract with DirecTV for NFL Sunday
Ticket expired, the cable MVPD consortium InDemand
presented a letter proposal to former NFL Commis­
sioner Paul Tagliabue offering $400 million to $500
million annually for the nonexclusive rights to carry
Sunday Ticket. “We’re prepared to accept a license fee
around those levels for a three-to five-year term,”
wrote Stephen A. Brenner, the president of InDemand,
at the time. However, within hours of receiving the
proposal, the NFL announced a five-year exclusive
renewal with DirecTV.
96. In October of 2014, DirecTV renewed its exclu­
sive agreement with the NFL. The renewal requires

144a
DirecTV to pay the NFL an average of $1.5 billion per
year for eight years in return for the exclusive right to
rebroadcast NFL Sunday afternoon games on Defend­
ants’ NFL Sunday Ticket service.
97. The NFL directly promotes Sunday Ticket as a
special product on its website. It states:
Get in the game with NFL SUNDAY TICKET.
Only on DIRECTV.
Only DIRECTV brings you every out-of-market
game live, every Sunday. Get the 2015 season
at no extra charge when you subscribe today!
Or up your game to NFL SUNDAY TICKET
MAX and get live games anywhere you
go, real-time highlights, the RED ZONE
CHANNEL®, DIRECTV FANTASY ZONE
CHANNELTM, and NFL.com fantasy, all on
your laptop, tablet, phone, or game console.
98. The NFL’s webpage then advertises the fullseason rates for Sunday Ticket, states that “[b]lackout
rules and other conditions apply,” and provides a link
to DirecTV’s website for additional information.
D. The Challenged Agreements Harm Competition
99. The NFL and its Teams’ agreement to pool
broadcasts is a classic horizontal supply restriction.
Bedrock economic principles teach that a horizontal
agreement by 32 market participants not to compete,
but rather to sell their products collectively, will
reduce output, raise prices, and harm consumers.
100. This harm is evident in many forms. First, the
availability of football broadcasts on standard overthe-air and cable channels is vastly lower than it
would otherwise be. NFL football has the highest
ratings of all sports programs. Yet only two or three

145a
Sunday afternoon games are available to fans. By con­
trast, NCAA football, whose similar restraints were
found to violate the antitrust laws by the Supreme
Court, is now available on dozens of different networks
on Saturday afternoons, with no limit on the number
of games aired at the same time.
101. Second, the output of NFL broadcasts, consid­
ered on a per-game basis, is half the output of the other
major American sports leagues.6 In the NHL, NBA,
and MLB, where teams are allowed to negotiate with
broadcasters, teams typically produce two broadcasts
per game, each with distinct characteristics appealing
to different consumers. In the NFL, by contrast, the
NFL and the Networks that carry NFL games create
just one broadcast for each game.
102. Unsurprisingly, these supply restrictions come
with correspondingly astronomic prices. For the 2015
season, DirecTV and the NFL charged as much as
$359 for a full season of Sunday Ticket to individual
subscribers, and anywhere from $1,458 to more than
$120,000 for commercial subscribers. Sunday Ticket
prices increase nearly every year; for example,
between the 2014 and 2015 seasons, DirecTV and the
NFL increased prices roughly 11.5%.
103. But for the anticompetitive agreements, each
Team would create its own broadcasts and sell those
broadcasts in a competitive marketplace. This would
naturally force prices down at the same time it
increased output. A bundle of games, whether sold as
Sunday Ticket or in another form, would continue to
be profitable enough that the Teams would have an
6 On an absolute basis, the disparity is even greater, but this
is because the NFL season has roughly 10-20% as many games
as the other leagues.

146a
incentive to continue offering it—but its prices would
necessarily decrease in the face of nationwide competi­
tion from individual Teams.
104. The contrast between NFL radio broadcasting
and NFL television broadcasting illustrates this harm.
NFL Teams negotiate individual radio broadcasting
contracts, rather than consolidating all broadcasting
in the NFL itself. Each Team produces (or contracts
with a third party to produce) its own radio broadcast
of its games, so that a fan of each Team in a game can
consume a broadcast catering to that fan base. As a
result, there are at least twice as many NFL radio broad­
casts as there are television broadcasts. The Team or
its radio partner licenses those broadcasts to multiple
radio stations—many of which broadcast the game
free on the Internet nationwide. Thus, despite there
being less demand for radio broadcasts, the NFL and
its Teams produce more output and make it more broad­
ly available—a disparity that can only be explained by
the anticompetitive effect of the horizontal restraint
on television broadcasting.
105. The NFL and its Teams’ agreement to sell the
bundled games through an exclusive distributor sig­
nificantly exacerbates the anticompetitive effect of the
agreements. By licensing their artificial, highly valua­
ble monopoly to DirecTV exclusively—rather than
offering it through multiple distributors as they do out­
side the United States and as all other sports leagues
do—the NFL and its Teams not only increase prices
and restrict availability for Sunday Ticket, but they
distort competition among MVPDs and between MVPDs
and the Internet. Indeed, in service to this agreement
to distribute exclusively, which is unique among major
American sports leagues, the NFL does not provide
any means of online availability for many consumers,

147a
drastically limiting output compared to the other
leagues.
106. The exclusive deal between DirecTV and the
NFL for the broadcast rights of NFL Sunday Ticket is
necessary to preserve the exercise of market power
created by the teams’ anticompetitive agreement to
monopolize the sales of broadcast rights. Without the
exclusive deal, some of the monopoly rents created by
the collusion among NFL teams would be dissipated
by price competition between DirecTV and one or more
MVPDs.
107. The exclusive distribution agreement is not
needed to assure a quality broadcast of the games
offered on Sunday Ticket or to allow the NFL sufficient
oversight of games offered on Sunday Ticket or any
other reasonable objective. Instead, the agreement
was created to artificially raise the price of Sunday
Ticket.
108. Indeed, the exclusive content enjoyed by
DirecTV is rare. Rob Stecklow, general manager of
sports products and marketing for DirecTV, admitted
as much: “[i]n this time and era where there’s less and
less content that’s exclusive, the NFL still reigns as
some of the best content out there.” The only way
Plaintiffs and members of the Classes can view
Sunday afternoon out-of-market NFL football games
is by purchasing NFL Sunday Ticket from DirecTV.
109. Nonetheless, this is not what has happened
with the telecasting of out-of-market games for other
professional sports leagues in the United States. For
example, in March of 2007, MLB was negotiating with
DirecTV for a seven-year, $700 million deal for an
exclusive contract to carry the Extra Innings package
At that time, InDemand made a $70 million per year

148a
($490 million over seven years) bid for non-exclusive
rights to carry Extra Innings, but MLB declined this
offer. While MLB and DirecTV were finalizing their
exclusive contract, public outcry and Congressional
pressure forced cancellation of the deal before the
season began. With the prospect of exclusivity elimi­
nated, both DirecTV and InDemand carried Extra
Innings, thereby offering greater consumer choice in
broadcasting than would have been possible under an
exclusive contract.
110. Subscribers to DirecTV have been concerned
about the market leverage it has been able to obtain
as a result of its deal with the NFL for Sunday Ticket.
The following interchange between a subscriber and
business columnist Steven Pearlstein was reported in
a Washington Post article:
[Subscriber] What do you make of the current
exclusivity arrangement the NFL has with
DirecTV to broadcast games? I find that
DirecTV will not sell its ‘Sunday Ticket’ pack­
age unless one also purchases a base program­
ming package. I don’t feel receiving NFL
games on cable is a God-given right, but do
feel the NFL is employing monopolistic prac­
tices by not opening up the Sunday Ticket to
other cable/satellite carriers. When might that
arrangement end? Thanks.
Steven Pearlstein: Right now they are using
DirecTV as the instrument for extending
their football monopoly to the distribution of
games on video. They have made it clear, how­
ever, that they want to own the distribution
channel themselves and now share their
monopoly profits with DirecTV. That is their
ultimate game plan, which by the way won’t

149a
include a free, over-the-air broadcast of local
team games on local television, unless they
are forced to do so.
111. Another columnist made a similar point in a
May 2014 article on the website of the Atlantic Monthly.
AT&T’s bid to acquire DirecTV includes acqui­
sition of the Sunday Ticket exclusive. The Los
Angeles Times reports that snapping up
Sunday Ticket is a key goal of AT&T’s. Profes­
sional football is among the most valuable
brands on the entertainment landscape. What
communications corporation wouldn’t want a
monopoly over a major NFL product?
But the Sunday Ticket cartel arrangement
assures that only a small share of the Ameri­
can population can enjoy viewer choice on
Sunday afternoons. The same voters who are
taxed to subsidize the NFL, to the tune around
$1 billion annually, are denied a choice about
what games to watch. Adding insult to injury,
anyone in Canada and Mexico can sign up for
NFL Sunday Ticket, without cable-carrier
restrictions. In those nations, telecommunica­
tion law forbids sole-carrier contracts. Inside
the United States, the NFL’s antitrust waiver
allows it to screw consumers with impunity.
And screwing consumers with impunity is a
prerogative AT&T wants too!
When the NFL made its first deal with
DirecTV, satellite-relayed signals were exotic
and broadband cable did not exist: Initially,
Sunday Ticket was seen as a niche product for
technophiles. A ratings calculation was at
work as well. Sunday Ticket is an annualized

150a
pay-per-view, and pay-channel viewership
does not count in Nielsen ratings. If large num­
bers of viewers switched from NFL games
aired on local affiliates to football shown on
Sunday Ticket, the NFL’s Nielsen numbers
would decline, even if actual viewership was
rising.
But as football has surged in popularity in the
last two decades and broadband has become
available to nearly all the country, observers
have repeatedly expected that Sunday Ticket
would become available to everyone. After all,
no one now could think the NFL is losing
popularity, while Nielsen’s scoring of newviewership habits such as next-day DVR. of
drama and comedy shows is taken into account
in their advertising rates. Today the NBA and
MLB both market their extra-price watchany-game services via cable.
But DirecTV has repeatedly offered the NFL
a king’s ransom to renew its monopoly. For
the 2014 season, DirecTV will pay the league
$1 billion for about two million Sunday Ticket
subscribers: more than to be paid by NBC,
whose NFL games average 10 times as many
viewers. DirecTV offers the king’s ransom
because Sunday Ticket is the loss leader that
put the company on the map. And the NFL
loves a customer that pays too much!
DirecTV has done the league important favors
to sustain its sweetheart relationship. As the
2011 season approached, with the NFL’s
labor deal expiring and a lockout possible,
DirecTV agreed to pay $1 billion even if no
games were played that season. CBS, ESPN,

151a
Fox, and NBC would have owed nothing for
no games. The $1 billion promise from DirecTV
afforded the NFL a plush strike fund, ensur­
ing owners and league executives could live in
luxury that year even if the season were can­
celled.
AT&T badly wants the same sweetheart
relationship with the NFL, and has insisted
DirecTV renew its monopoly deal before the
takeover closes. If so AT&T will acquire some­
thing CBS, Comcast, ESPN, Fox, NBC, and
Verizon don’t have—the sole means to watch
the NFL game of your choice.
The Justice Department should insist, as part
of any approval it may offer for the AT&T
merger bid, that DirecTV divest itself of the
Sunday Ticket exclusive. Such a requirement
may cause AT&T to back out of the deal, or
demand that DirecTV accept a lower price:
but that’s why there is antitrust law, to
provide a cross-check against behavior that
harms consumers. The NFL’s viewer-choice
service should be offered by all cable carriers,
as nearly all other entertainment products
are available across the cable universe.
Not only is it absurd that Americans subsi­
dize a sports league so Canadian and Mexican
viewers can have more choice than Americans
do. If Sunday Ticket were available on all
cable carriers, more buyers would allow for a
lower price, as happened with cell phones.
Rather than a tiny number who have good
luck with geography paying $200 a year to
pick their own NFL game, many millions

152a
could pay, say, $50 a year for the same
freedom.
Allowing AT&T to acquire DirecTV’s Sunday
Ticket monopoly would be strongly anti­
consumer. Using this moment to divest the
monopoly and bring Sunday Ticket to all tele­
communications platforms would be strongly
pro-consumer. Please don’t tell us the Justice
Department and the White House will mess
this opportunity up.
112. For years, DirecTV has hypocritically fought
with its cable industry competitors to ensure that vital
access to sports programming on so-called “regional
sports networks” (“RSNs”) is available to it on a non­
exclusive basis. For example, on August 31, 2012,
DirecTV wrote to the Federal Communications Commis­
sion in support of a proposed rule extending a ban on
vertically integrated cable companies from withhold­
ing access to RSNs from other MVPDs, including
DirecTV:
Six years ago, the Commission used a regres­
sion analysis to evaluate and quantify the
potential harm to competition that results
when a cable-affiliated programmer withholds
content from rival MVPDs. Among other
things, the Commission found that, as a
result of the decision by the Cox-affiliated
regional sports network (“RSN”) in San Diego
to deny its programming (including games of
the San Diego Padres) to MVPD rivals, DBS
penetration in the San Diego market was
40.5% lower than it would have been if that
programming had not been withheld. The
attached economic analysis of San Diego
subscribership is qualitatively consistent

153a
with the Commission’s finding about the
damage done when cable-affiliated program­
mers withhold content from competitors.
This updated analysis takes advantage of the
fact that the Cox RSN recently lost the rights
to telecast Padres games. This season, those
games are available to all MVPDs through
Fox Sports San Diego (“FSSD”). DIRECTV
carries FSSD, as does Cox. These recent
developments in San Diego offer a natural
experiment through which to evaluate the
effects of gaining access to valuable content.
Accordingly, DIRECTV asked Professor Kevin
Murphy to augment his prior economic analy­
sis in this proceeding with an analysis of
subscribership in San Diego in light of this
new RSN arrangement.
As more fully detailed in Professor Murphy’s
attached report, the data from 2012 are con­
sistent with the Commission’s finding in 2006.
In order to evaluate the effect on DIRECTV’S
subscribership from gaining access to Padres
games, Professor Murphy first calculated the
difference in the growth rate in the number of
DIRECTV subscribers in San Diego before
and after these RSN changes. He then calcu­
lated this difference for a set of control mar­
kets, and compared the before-and-after
difference in DIRECTV’S growth rates in San
Diego to the before-and-after difference in
DIRECTV’S growth rates in the control mar­
kets. The results of this analysis indicate that
DIRECTV has gained substantially more sub­
scribers in San Diego since it gained access to
Padres games through FSSD than would

154a
have been expected based on its subscribership trends in comparable markets. These
gains were achieved in only the first five
months of DIRECTV’S FSSD carriage; the
long run effects likely will be larger, as addi­
tional San Diego households revisit their
MVPD choice. These conclusions are further
supported by customer surveys, which evidence
an increase in the number of new subscribers
citing “access to sports channels” as the rea­
son for subscribing to DIRECTV since it began
carriage of FSSD.
113. Thus, as DirecTV’s own data demonstrates,
consumers benefit from the non-exclusive distribution
of live sports content by way of enhanced competition
amongst MVPDs.
E. DirecTV Has Participated in and Facilitates
This Anticompetitive Scheme
114. DirecTV has participated in and facilitates the
horizontal agreements among the Teams.
115. DirecTV requires the NFL and its Teams to
maintain their anticompetitive agreement, and has
paid handsomely to ensure compliance. Indeed, DirecTV
has significantly expanded the agreement, preventing
online distribution of live games until recent years,
and even today limiting online distribution primarily
to individuals unable to install DirecTV in their
households. Because of DirecTV’s participation in the
scheme, the United States is one of the only countries
in the world where NFL games are not offered online
to all consumers. Similarly, the NFL and its teams
have licensed Sunday Ticket to more than a dozen
satellite and cable providers in Canada, which they

155a
would have done in the United States as well but for
DirecTV’s inducements and demands.
116. The NFL has described itself as being in a
“partnership” with DirecTV. In announcing the 2014
contract renewal, the NFL issued a press release that
stated as follows:
“We are pleased to continue our partnership
with DirecTV,” said NFL Commissioner Roger
Goodell [“Goodell”] “DirecTV and NFL Sunday
Ticket have served our fans well for 20 years
and continue to complement our broadcast tel­
evision packages. We also appreciate DirecTV’s
commitment to NFL Network, which it has
carried since the channel launched in 2003.”
“This new agreement is a testament to the
terrific long-term relationship we have with
the NFL and its millions of fans across the
country,” said Mike White, chairman, presi­
dent and CEO of DirecTV. “NFL Sunday Ticket
has always been the centerpiece of DirecTV’s
sports leadership and we’re pleased to con­
tinue our relationship with the NFL and be a
part of the league’s future growth and success.”
117. Similar statements were made by Goodell in
NFL press releases announcing the contract exten­
sions with DirecTV for Sunday Ticket in 2009 and
2012. As noted earlier in this Complaint, the NFL
directly markets the Sunday Ticket service and its
price on the NFL’s website.
118. There are no procompetitive benefits to the
exclusive distribution arrangement. Exclusive distri­
bution can sometimes promote inter-brand competition,
but because the NFL is the only provider of major-

156a
league professional football telecasts in the United
States, there is no relevant inter-brand competition.
F. There Are No Procompetitive Benefits, and Any
That Might Exist Could Be Achieved through
Less Restrictive Means
119. These output restrictions have no procompeti­
tive benefits—and even if they did, any such benefits
could be achieved through less restrictive means. Even
though other major sports leagues engage in anticom­
petitive horizontal restrictions of their own, none has
sought to completely eliminate individual teams’
output—and yet none of them have any problems
broadcasting all or nearly all of their games. Indeed,
as discussed above, the other leagues have more pergame output.
120. Moreover, NFL broadcasting rights—even
without the scheme to monopolize and restrict them—
are an extraordinarily valuable commodity. The Nielsen
Company estimated that the 2014 regular season
alone reached 202.3 million unique viewers, repre­
senting 80 percent of all television homes and 68%
percent of all potential viewers in the United States.7
Viewership for NFL games regularly eclipses that of
any other program on television. During the 2014
regular season, every one of the 20 most-watched
programs in America was an NFL game, as were 25 of
the next 30. Indeed, for the past three years, an NFL
game was the most-watched program on television for
each week of the NFL season. This trend shows no
signs of abating. For example, a preseason game
7 On information and belief, the statistics in this paragraph do
not include viewership through Sunday Ticket—meaning that
even these impressive statistics underestimate the demand for
football broadcasts.

157a
between the Minnesota Vikings and the Pittsburgh
Steelers on August 11, 2015 was the most-watched
program in America for the entire week, according to
the Nielsen ratings service—despite being a preseason
game, rather than a regular season game, and between
two relatively small-market teams. As Nielsen sum­
marized earlier this year, “NFL fans make every game
a Super Bowl.”
121. Given this tremendous viewership, there can
be no serious argument that NFL Teams would have
trouble obtaining distribution without their horizontal
restraint. The supply restriction has the effect and pur­
pose of concentrating viewership in a limited number
of broadcasts, and allowing for the charging of higher
fees for advertising. But even though revenues—and
prices to advertisers and consumers—would be lower
without the restraint, they would still be more than
sufficient to incentivize Teams to broadcast their indi­
vidual games as broadly as possible, particularly given
the relatively low costs of distribution.
122. Similarly, restrictions are not necessary to
preserve attendance at games, as they were thought to
have been in the 1950s. Industry observers and partic­
ipants widely believe the notion that video broadcasts
hurt attendance to be antiquated and wrong; rather,
the consensus is that they are complementary prod­
ucts that increase interest and thus increase attend­
ance, merchandise purchases, and other valuable
forms of fan engagement. Indeed, many less popular
leagues, such as the AFL, give their broadcasts away
for free on the Internet in the hopes of generating
interest. The NFL itself has now abandoned all black­
outs of non-sold-out local games, having been the last
major sports league to limit broadcasts to encourage
ticket sales.

158a
123. Even if the restrictions did protect game
attendance, that protection is no longer justified as it
may have been in the 1950s. The NFL I court relied
heavily on its findings that “less than half the clubs
over a period of years are likely to be financially suc­
cessful” and that “the very existence of the individual
clubs” required “protection of home game attendance.”
NFL I, 116 F. Supp. at 323, 325. Today, the average
NFL Team is worth $2 billion, according to Forbes,
with even the least valuable team valued at $1.4 bil­
lion. There is no plausible risk that any Teams would
be driven out of business if required to license its
lucrative broadcast rights individually.
124. Nor are the restrictions necessary to foster
competitive balance. Whatever measures may be
acceptable in pursuing the goal of competitive balance,
they cannot justify eliminating all broadcasting com­
petition and thereby restricting supply, raising prices
and revenues. The NFL and its Teams engage in a
variety of other measures intended to ensure competi­
tive balance, such as salary caps that are exempt from
antitrust scrutiny under labor exemptions; there is no
need to monopolize the broadcasting market as well. If
the NFL and its Teams were simply interested in
competitive balance, they could generate revenues
through ordinary competitive means and then engage
in some permissible form of revenue sharing, or other­
wise participate in less restrictive agreements.
125. Likewise, Defendants could achieve any legiti­
mate, pro-competitive goals without an exclusive
arrangement. As noted earlier in the Complaint,
Sunday Ticket is offered in Canada on a non-exclusive
basis through more than a dozen satellite and cable
providers. And in the United States, other football
products such as the NFL’s “Red Zone” package (which

159a
offers views of selected in-game highlights) are offered
on a non-exclusive basis as well.
126. Defendants’ exclusive agreement has a clear
negative impact on competition, and serves no procompetitive purpose. There is no evidence that this
agreement was created to assure the quality of Sunday
Ticket or to allow the NFL sufficient oversight, or any
other permissible objective. Instead, DirecTV and the
NFL entered into the agreement with the intent of
maintaining a monopoly price for Sunday Ticket. And,
because all the NFL teams have colluded to offer the
package, they have also prevented individual competi­
tion by teams selling their own games to broadcasters.
127. There are several less restrictive alternatives
which would achieve any legitimate, procompetitive
goals. Those include letting teams contract individu­
ally with DirecTV and allowing other distributors to
purchase and exhibit the Sunday Ticket package.
128. Noll made a similar point in testimony before
the United States Senate Judiciary Committee at a
November 14, 2006 hearing on “Competition In Sports
Programming And Distribution: Are Consumers
Winning?”:
The relevant benchmark for whether an action
is pro- or anti-competitive is the circumstance
that would prevail in a competitive world. The
argument that NFL Sunday Ticket increased
output is correct, but it increased output in a
monopolized market. The issue is what is the
alternative in the absence of monopolization,
and in the absence of monopolization, the
market for televised NFL games would be like
other pro sports were or like college sports are
today. For example, if all broadcasting of col-

160a
lege football games were put together into a
single package priced at $150 a month and
shown exclusively through DirecTV, the effort
would be a profit-enhancing reduction in out­
put. From my perspective, if one adopts the
right counterfactual, the right but-for world
in the competitive environment, it is obvious
that NFL Sunday Ticket is a palliative com­
pared to the output and prices that would
exist in a competitive environment.
G. Examples from Other Leagues Confirm That
Comparable Agreements Harm Competition
129. Both empirical evidence and the opinions of
sports teams themselves confirm that restrictions
such as these harm competition—and that eliminating
them produces an explosion in output.
130. The example of Division 1 college football is an
instructive comparison. Before 1984, the National Col­
legiate Athletic Association (“NCAA”) limited the total
number of televised intercollegiate football games and
the number of games that any one college could
televise. It also prohibited colleges from broadcasting
through sources other than ABC and CBS.
131. Two universities sued the NCAA, leading the
United States Supreme Court to find that the NCAA’s
plan violated 15 U.S.C. § 1. After a full trial, the United
States District Court for the Western District of
Oklahoma found that the NCAA was a “classic cartel”
that had “sought and achieved a price for their product
which is, in most instances, artificially high.” NCAA v.
Board, of Regents of Univ. of Okla., 468 U.S. 85, 96
(1984) (quoting Board of Regents of Univ. of Okla., 546
F. Supp. 1276,1300-01 (W.D. Okla. 1982)). The district
court found the plan to constitute price-fixing, a group

161a
boycott, and artificial limit on production. It rejected
the NCAA’s proffered justifications that competition
would adversely affect gate attendance or harm com­
petitive balance.
132. The United States Court of Appeals for the
Tenth Circuit affirmed,8 as did the Supreme Court.
The Supreme Court found the NCAA’s plan to be “a
horizontal restraint” that both “create [d] a limitation
on output” and “constitut[ed]horizontal price fixing.”
Id. at 99-100. This created “a significant potential for
anticompetitive effects”—a potential that “ha[d] been
realized.” Id. at 104-05. As the district court had
found, “if member institutions were free to sell televi­
sion rights, many more games would be shown on
television”; prices were not only inflated but “unrespon­
sive to viewer demand and unrelated to the prices that
would prevail in a competitive market.” Id. at 105-06.
The “anticompetitive consequences of this arrange­
ment,” the Supreme Court said, were “apparent.” Id.
at 106. Nor were there “any procompetitive efficiencies
which enhanced the competitiveness of college football
television rights; to the contrary . . . NCAA football
could be marketed just as effectively without the tel­
evision plan.” Id. at 114.
133. After the NCAA’s plan was abolished, the
Supreme Court’s prediction that “many more games
would be shown on television” proved true. Today,
Division I college football and basketball are among
the most heavily televised sports in the country. All
four major broadcast networks nationally televise col­
lege football games, as do at least three ESPN chan­
nels (ESPN, ESPN 2, and ESPNU), Fox Sports 1, CBS
8 The appellate court did remand to modify the district court’s
injunctive decree.

162a
Sports Network, and NBC Sports Network. Most
regional sports networks (“RSNs”) also carry college
football, as do three regional Fox College Sports Net­
works and various NCAA conference-created channels.
Similarly, at least 10 networks carry college basket­
ball nationally, along with many RSNs and the Fox
College Sports Networks.
134. This example confirms that agreements to
monopolize and restrict the availability of sports broad­
casts raise the prices of those broadcasts and reduce
their output, exactly as intended. It strongly suggests
that, in the absence of the agreements challenged
here, teams would have no difficulty finding national
distributors for their currently untelevised games.
Indeed, given the far higher popularity of professional
football and the far lower number of games, the most
likely outcome would be that every team would find a
national distributor for every one of its games.
135. Sports teams themselves have acknowledged
these facts, when they have become dissatisfied with
the terms under which their league’s monopoly rents
were shared. In addition to collegiate litigation, profes­
sional hockey and basketball teams have sued their
leagues, alleging that their broadcasting restrictions
unlawfully restrained trade.
136. Madison Square Garden Company (“MSG”),
the owner of the New York Rangers professional ice
hockey club and two RSNs, sued the NHL in 2007,
alleging that its television and Internet restrictions—
which, as noted above, do not eliminate all club broad­
casts as the NFL does—were anticompetitive and
unlawful. See Madison Square Garden, L.P. v. Nat’l
Hockey League, No. 07-8455, 2008 WL 4547518
(S.D.N.Y. Oct. 10, 2008). MSG alleged in its complaint
that the NHL’s restraints “reduced output, diminished

163a
product quality, diminished choice and suppressed
price competition,” and that “[t]here are no legitimate,
procompetitive justifications for these ‘exclusive’ agree­
ments and other competitive restraints, which have
harmed consumers in various ways.” After the district
court denied the NHL’s motion to dismiss, MSG and
the NHL settled their lawsuit on a confidential basis,
allowing the anticompetitive restraint to stay in place
(and, presumably, giving MSG a greater share of the
bounty).
137. Similarly, in a bankruptcy adversary action
brought by the Phoenix Coyotes hockey club (“Coyotes”)
against the NHL, the Coyotes alleged that “[t]he NHL
and its members have conspired to create exclusive
television and radio broadcast rights ... thereby main­
taining monopoly power.” Coyotes Hockey LLC v. NHL,
Av. No. 09-494 (Bankr. D. Ariz. June 5, 2009). This
claim was similarly resolved without upsetting the
anticompetitive scheme, as the NHL obtained owner­
ship of the Coyotes through the bankruptcy.
138. In basketball, too, at least one team has
acknowledged the anticompetitive effect of broadcasting
restraints. The Chicago Bulls challenged NBA limita­
tions on distribution on so-called “superstations,”
reducing the number of games shown nationwide. The
Bulls took the NBA to trial twice and proved the
restraints’ unlawfulness both times.9 As the United
States District Court for the Eastern District of Illinois
found, the restraints “reduce availability and competi­
tion in the hope of raising the price of the product in
the future. Such a restraint is unreasonable and there9 Ultimately the NBA defeated the second suit, but on the
basis of a “single entity” defense that the Supreme Court defini­
tively rejected in American Needle.

164a
fore unlawful.” Chicago Profl Sports L.P. v. NBA, 754
F. Supp. 1336,1364 (E.D. Ill. 1991), affd, 961 F.2d 667
(7th Cir. 1992).
139. Thus, a natural experiment in college football,
the views of multiple sports teams, and the verdicts
from multiple bench trials all support the same conclu­
sion: sports leagues that restrict their teams’ broad­
casting rights unlawfully restrain trade.
H. Plaintiffs and The Classes Have Suffered
Antitrust Injury
140. Plaintiffs have been overcharged for live video
presentations of regular season NFL games. The
agreements described above have restrained horizontal
competition between and among the distributors of
NFL games, including competition in the commercial
exploitation of televised presentations of live games.
The agreements described above have adversely affected
and substantially lessened competition in the relevant
markets. As a result, prices are higher than they
would be in the absence of the agreements to restrict
competition.
141. As subscribers to NFL Sunday Ticket, Plain­
tiffs have been charged supracompetitive prices for
live video presentations of regular season NFL games
because of the horizontal output restrictions and the
participation of DirecTV in limiting availability and
increasing the price of the Sunday Ticket package. In
addition, without the exclusive licenses and other
restraints, DirecTV, broadcasters, and other MVPDs
would compete with each other in the distribution of
NFL games to a much greater extent than the limited
opportunities now available.
142. As purchasers of MVPD services that includes
NFL programming, Plaintiffs have been charged

-<A

165a
supracompetitive prices for live video presentations of
regular season NFL games because of the horizontal
output restrictions in limiting competition among and
availability of such presentations.
143. Plaintiffs have been injured by the unavailabil­
ity of live video presentations of regular season NFL
games over the Internet, which would be competitive
substitutes if they were made available by NFL Teams
or the NFL. The horizontal output restrictions and the
participation of DirecTV in limiting competition among
and availability of such presentations have prevented
such Internet distribution.
144. Plaintiffs have been injured by the Teams’
joint refusal to offer the vast majority of live video
presentations of regular season NFL games over the
Internet, on free over-the-air networks, or as part of
any pay television service other than DirecTV.
145. A similar issue was dealt with in the case of
Laumann v. National Hockey League, Nos. 12—cv—
1817 (SAS), 12-cv-3704 (SAS), 2014 WL 3900566
(S.D.N.Y. Aug. 8, 2014). There, Judge Shira Scheindlin
was dealing with agreements by MLB and the NHL
with DirecTV that involved the telecasting of games
outside of a member team’s home territory. Judge
Scheindlin denied summary judgment, finding triable
issues as to antitrust injury:
Plaintiffs have carried their initial burden of
showing an actual impact on competition. The
clubs in each League have entered an express
agreement to limit competition between the
clubs—and their broadcaster affiliates—based
on geographic territories. There is also evidence
of a negative impact on the output, price, and
perhaps even quality of sports programming.

1

166a
Plaintiffs’ expert, Dr. Roger G. Noll [“Noll”],
attests that consumers pay higher prices for
live game telecasts, and have less choice
among the telecasts available to them, than
they would in the absence of the territorial
restrictions.
Id. at *8. She went on to rule that there were jury
issues as to whether telecasters like DirecTV were
participants in the conspiracy between MLB, the NHL
and their member clubs. Id. at *12-13.
146. The expert evidence by Noll provided in that
case and cited by Judge Scheindlin was as follows:
The ability to extract more revenues from an
exclusive contract arises because out-of-market telecasts are a subscription driver for
MVPDs. The benefits of exclusivity to the licen­
see then can be captured by MLB through
higher rights fees by auctioning the exclusive
rights to the highest bidder. If live telecasts of
other sports, or other types of programming,
were close competitive substitutes for MLB
Extra Innings, DirecTV would not be able to
obtain greater revenue from subscribers by
obtaining exclusive rights, and so MLB would
not be able to extract additional revenue by
selling Extra Innings on an exclusive basis.
“Declaration of Roger G. Noll,” p. 89 (Feb. 14, 2014),
filed in Laumann v. NationalHockey League, Nos. 12—
cv-1817 (SAS), 12-cv-3704 (SAS) (S.D.N.Y.).
I. The Sports Broadcasting Act Does Not Shield
Defendants’ Anticompetitive Acts

167a
147. Congress enacted the Sports Broadcasting Act
of 1961 (“SBA”) to facilitate the sale of packaged
broadcast rights for pro sports leagues. It states:
The antitrust laws, as defined in section I of
the Act of October 15, 1914 [Section One of
the Sherman Act] . . . shall not apply to any
joint agreement by or among persons engag­
ing in or conducting the organized profes­
sional team sports of football, baseball, basket­
ball, or hockey, by which any league of clubs
participating in professional football, baseball,
basketball, or hockey contests sells or other­
wise transfers all or any part of the rights of
such league’s member clubs in the sponsored
telecasting of the games of football, baseball,
basketball, or hockey, as the case may be,
engaged in or conducted by such clubs.
15 U.S.C. § 1291.
148. In essence, the SBA granted all the major
sports leagues an exemption from antitrust liability
when entering into pooled-rights contracts. The exemp­
tion is expressly limited to agreements among the
teams in the league.
149. The SBA is also expressly limited to “spon­
sored telecasting,” which courts have construed to
mean that the SBA only applies to broadcast television
and not to cable or satellite. In fact, when the SBA was
being passed through Congress, former NFL Commis­
sioner Pete Rozelle (“Rozelle”) was asked by the House
of Representatives, “[y]ou understand ... that this Bill
covers only the free telecasting of professional sports
contests, and does not cover pay T.V.?” to which Rozelle
responded under oath, “[a]bsolutely.” Another former
NFL commissioner, Paul Tagliabue, has conceded

168a
before a Senate Committee that the term “sponsored
telecasts” does not include “pay and cable .... This is
clear from the legislative history and from the commit­
tee reports.”
150. Thus, the SBA offers Defendants no protection
for their anti-competitive acts.
151. In Shaw v. Dallas Cowboys Football Club, Ltd.,
No. Civ. A. 97-5184, 1998 WL 419765 (E.D. Pa. June
23, 1998), affd, 172 F.3d 299 (3d Cir. 1999), plaintiff
Charles Shaw brought suit against several NFL teams
and the NFL itself, alleging that the NFL’s agreement
for Sunday Ticket with DirecTV violated the Sherman
Act.
152. The NFL argued, in moving to dismiss, that
Sunday Ticket was exempt from antitrust scrutiny
under the SBA because Sunday Ticket “is simply a sale
of the [teams’] residual rights in the games which were
broadcast on ‘sponsored telecasts,’ and, so, the package
is a sale of‘part of the rights’ to the ‘sponsored telecasts.’”
1998 WL 419765, at *2.
153. The court in Shaw rejected the NFL’s argu­
ment, finding that the NFL’s sale of Sunday Ticket fell
outside the SBA’s protections. Id. at *3.
154. Likewise, in Laumann v. NHL, 907 F.Supp.2d
465 (S.D.N. Y. 2012), Judge Scheindlin also held that
the term “‘[sponsored telecasting’ under the SBA per­
tains only to network broadcast television and does not
apply to non-exempt channels of distribution such as
cable television, pay-per-view, and satellite television
networks.’” Id. at 489 n. 141 (quoting Kingray v. NBA,
Inc., 188 F. Supp. 2d 1177, 1183 (S.D. Cal. 2002)).

169a
CLAIMS FOR RELIEF
COUNT ONE
Violation of Section 1 of the Sherman Act
155. Plaintiffs, on behalf of themselves and the
Classes that they represent, incorporate and re-allege
the preceding paragraphs of the Complaint.
156. Defendants, by and through their officers,
directors, employees, agents, or other representatives,
and others acting in concert with them, have entered
into an unlawful agreement, combination, and conspir­
acy in restraint of trade, in violation of 15 U.S.C. § 1.
Specifically, Defendants agreed to restrain competi­
tion in the licensing and distribution of live video
presentations of NFL games in the relevant geo­
graphic and product market and submarket described
above, with the purpose, intent, and effect of restrain­
ing trade and commerce and increasing prices paid by
consumers and advertisers to distributors of live video
presentations of regular season NFL games.
157. Defendants’ anticompetitive conduct injured
Class members by decreasing the availability of live
video presentations of regular season NFL games,
decreasing choice among game broadcasts and among
distributors, and increasing the cost of accessing live
video presentations of NFL games, including, but not
limited to, increasing the price charged by DirecTV for
Sunday Ticket.
158. Defendants’ anticompetitive conduct harms
competition and lacks any procompetitive benefits; if
any procompetitive benefits do exist, they can be
achieved by less restrictive means and do not outweigh
the harm to competition. Plaintiffs and other commer­
cial and residential subscribers will continue to suffer

i

170a
antitrust injury and other damage unless Defendants
are enjoined from continuing to engage in the forego­
ing violations of law.
COUNT TWO
Violation of Section 2 of the Sherman Act
159. Plaintiffs, on behalf of themselves and the
Classes that they represent, incorporate and re-allege
the preceding paragraphs of the Complaint.
160. The NFL and its Teams, by and through their
officers, directors, employees, agents, or other repre­
sentatives, and others acting in concert with them,
have unlawfully monopolized the relevant market iden­
tified above in violation of 15 U.S.C. § 2. All Defend­
ants have unlawfully monopolized the relevant submarket identified above in violation of 15 U.S.C. § 2.
161. Specifically, the NFL and its Teams agreed to
consolidate all licensing rights for live video presenta­
tions of regular season NFL games into a single entity,
with the purpose, intent, and effect of monopolizing
the relevant market and submarket described above.
These activities have gone beyond those which could
be considered “legitimate business activities” and are
an abuse of market power. DirecTV has obtained an
unlawful monopoly with respect to the out-of-market
Sunday afternoon games available through its agree­
ments with the NFL and its Teams.
162. Defendants, by and through their officers,
directors, employees, agents, or other representatives,
and those acting in concert with them, have conspired
to give DirecTV a monopoly in the relevant submarket
described above, making it the only source for the vast
majority of NFL games in any given location, including
as many as ten (of eleven to thirteen) Sunday after-

171a
noon games. This has allowed the anticompetitive
effects described herein to flourish.
163. Defendants’ anticompetitive conduct injured
class members by decreasing the availability of live
video presentations of regular season NFL games,
decreasing choice among game broadcasts and among
distributors, and increasing the cost of accessing live
video presentations, including, but not limited to,
increasing the price charged by DirecTV for Sunday
Ticket.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs pray as follows:
1. That the Court determines that litigation may be
maintained as a class action under Fed. R. Civ. P. 23,
and that Plaintiffs be named representatives of the
commercial and residential Classes in which they are
members.
2. That the contract, combination or conspiracy, and
the acts done in furtherance thereof by Defendants as
alleged in this Complaint, be adjudged to have been a
violation of Section 1 of the Sherman Act.
3. That Defendants’ actions to illegally acquire and
maintain monopoly power in the relevant product mar­
ket, be adjudged to have been in violation of Section 2
of the Sherman Act.
4. That judgment be entered for Plaintiffs and
members of the Classes against Defendants for three
times the amount of damages sustained by Plaintiffs
and the members of the Classes as allowed by law,
together with the costs of this action, including rea­
sonable attorneys’ fees, pursuant to Sections 4 and 16
of the Clayton Act (15 U.S.C. §§15 and 26).

172a
5. That Plaintiffs and the Classes be awarded prejudgment and post-judgment interest at the highest
legal rate from and after the date of service of this
Complaint to the extent provided by law;
6. That Defendants be enjoined from further viola­
tions of the antitrust laws; and
7. That Plaintiffs and members of the Classes have
such other, further or different relief, as the case may
require and the Court may deem just and proper under
the circumstances.
DEMAND FOR JURY TRIAL
Plaintiffs request a jury trial on all matters so
triable.
Dated: June 24, 2016

Respectfully submitted,
SUSMAN GODFREY L.L.P.
By: /s/ Marc M. Seltzer
Marc M. Seltzer

Marc M. Seltzer
Susman Godfrey L.L.P.
1901 Avenue of the
Stars, Suite 950
Los Angeles, CA 90067
Tel: 310-789-3100
Fax: 310-789-3150
Email: mseltzer@
susmangodfrey.com
Michael D. Hausfeld
Hausfeld LLP
1700 K Street NW,
Suite 650
Washington, DC 20006
Tel: (202) 540-7200

Arun Subramanian
William Christopher
Carmody
Seth Ard
Ian M. Gore
Susman Godfrey LLP
1301 Avenue of the
Americas, 32nd Floor
New York, NY 10019
Tel: (212) 336-8330
Fax: (212) 336-8340
Email: asubramanian@
susmangodfrey.com
Email: bcarmody@
susmangodfrey.com

Fax: (202)540-7201
Email: mhausfeld@
hausfeld.com
Scott Martin
Irving Scher
Hausfeld LLP
33 Whitehall Street,
14th Floor
New York, NY 10004
Tel: (646) 357-1100
Fax: (212) 202-4322
Email: smartin@
hausfeld.com
Email: ischer@
hausfeld.com
Howard Langer
Edward Driver
Peter Leckman
Langer Grogan and
Diver PC
1717 Arch Street
Suite 4130
Philadelphia, PA 19103
Tel: 215-320-5660
Fax: 215-320-5703
Email: hlanger@
langergrogan.com
Email: ndiver@
1 angergrogan. com
Email: pleckman@
langergrogan.com
Interim Class Counsel

173a
Email: sard@
susmangodfrey. com
Email: igore@
susmangodfrey.com
Michael P. Lehmann
(SBN 77152)
Bonny E. Sweeney
(SBN 176174)
Christopher L. Lebsock
(SBN 184546)
Hausfeld LLP
600 Montgomery St.,
Suite 3200
San Francisco, CA 94111
Tel: (415) 633-1908
Fax: (415) 358-4980
Email: mlehmann@
hausfeld.com
Email: bsweeney®
hausfeld.com
Email: clebsock@
hausfeld.com

